<html>
<title> - ARE THE FEDERAL GOVERNMENT'S CRITICAL PROGRAMS READY FOR JANUARY 1, 2000?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  ARE THE FEDERAL GOVERNMENT'S CRITICAL PROGRAMS READY FOR JANUARY 1, 
                                 2000?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                       SUBCOMMITTEE ON TECHNOLOGY

                                 of the

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 1999

                               __________

                     Committee on Government Reform

                           Serial No. 106-52

                          Committee on Science

                           Serial No. 106-53

                               __________

   Printed for the use of the Committee on Government Reform and the 
                          Committee on Science


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
61-120 CC                   WASHINGTON : 1999





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                   Matt Ryan, Senior Policy Director
    Bonnie Heald, Communications Director/Professional Staff Member
                          Mason Alinger, Clerk
                     Faith Weiss, Minority Counsel



                          COMMITTEE ON SCIENCE

       HON. F. JAMES SENSENBRENNER, Jr., (R-Wisconsin), Chairman
SHERWOOD L. BOEHLERT, New York       GEORGE E. BROWN, Jr., California, 
LAMAR SMITH, Texas                       RMM**
CONSTANCE A. MORELLA, Maryland       RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    TIM ROEMER, Indiana
KEN CALVERT, California              JAMES A. BARCIA, Michigan
NICK SMITH, Michigan                 EDDIE BERNICE JOHNSON, Texas
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
VERNON J. EHLERS, Michigan*          ALCEE L. HASTINGS, Florida
DAVE WELDON, Florida                 LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
THOMAS W. EWING, Illinois            MICHAEL F. DOYLE, Pennsylvania
CHRIS CANNON, Utah                   SHEILA JACKSON-LEE, Texas
KEVIN BRADY, Texas                   DEBBIE STABENOW, Michigan
MERRILL COOK, Utah                   BOB ETHERIDGE, North Carolina
GEORGE R. NETHERCUTT, Jr.,           NICK LAMPSON, Texas
    Washington                       JOHN B. LARSON, Connecticut
FRANK D. LUCAS, Oklahoma             MARK UDALL, Colorado
MARK GREEN, Wisconsin                DAVID WU, Oregon
STEVEN T. KUYKENDALL, California     ANTHONY D. WEINER, New York
GARY G. MILLER, California           MICHAEL E. CAPUANO, Massachusetts
JUDY BIGGERT, Illinois               VACANCY
MARSHALL ``MARK'' SANFORD, South     VACANCY
    Carolina
JACK METCALF, Washington


                       Subcommittee on Technology

               CONSTANCE A. MORELLA, Maryland, Chairwoman
CURT WELDON, Pennsylvania            JAMES A. BARCIA, Michigan**
ROSCOE G. BARTLETT, Maryland         LYNN N. RIVERS, Michigan
GIL GUTKNECHT, Minnesota*            DEBBIE STABENOW, Michigan
THOMAS W. EWING, Illinois            MARK UDALL, Colorado
CHRIS CANNON, Utah                   DAVID WU, Oregon
KEVIN BRADY, Texas                   ANTHONY D. WEINER, New York
MERRILL COOK, Utah                   MICHAEL E. CAPUANO, Massachusetts
MARK GREEN, Wisconsin                BART GORDON, Tennessee
STEVEN T. KUYKENDALL, California     TIM ROEMER, Indiana
GARY G. MILLER, California

                               Ex Officio

F. JAMES SENSENBRENNER, Jr.,         GEORGE E. BROWN, Jr., California+
    Wisconsin+



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 13, 1999...................................     1
Statement of:
    Lee, Diedre, Acting Deputy Director for Management, Office of 
      Management and Budget; Fernando Burbano, Chief Information 
      Officer, U.S. Department of State; Richard Nygard, Chief 
      Information Officer, U.S. Agency for International 
      Development; Anne F. Reed, Chief Information Officer, U.S. 
      Department of Agriculture; Joel C. Willemssen, Director, 
      Civil Agencies Information Systems, U.S. General Accounting 
      Office; and James J. Flyzik, Chief Information Officer, 
      U.S. Department of the Treasury............................    10
Letters, statements, etc., submitted for the record by:
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois, prepared statement of...................     5
    Burbano, Fernando, Chief Information Officer, U.S. Department 
      of State, prepared statement of............................    67
    Flyzik, James J., Chief Information Officer, U.S. Department 
      of the Treasury, prepared statement of.....................    82
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California, memorandum dated March 26, 1999.......   103
    Jackson-Lee, Hon. Sheila, a Representative in Congress from 
      the State of Texas, prepared statement of..................     7
    Lee, Diedre, Acting Deputy Director for Management, Office of 
      Management and Budget:
        Information concerning specific criteria.................   107
        Information concerning emergency funds...................    91
        Prepared statement of....................................    14
    Nygard, Richard, Chief Information Officer, U.S. Agency for 
      International Development, prepared statement of...........    59
    Reed, Anne F., Chief Information Officer, U.S. Department of 
      Agriculture, prepared statement of.........................    40
    Stabenow, Hon. Debbie, a Representative in Congress from the 
      State of Michigan, prepared statement of...................     9
    Willemssen, Joel C., Director, Civil Agencies Information 
      Systems, U.S. General Accounting Office, prepared statement 
      of.........................................................    21


  ARE THE FEDERAL GOVERNMENT'S CRITICAL PROGRAMS READY FOR JANUARY 1, 
                                 2000?

                              ----------                              


                        TUESDAY, APRIL 13, 1999

        House of Representatives, Subcommittee on 
            Government Management, Information, and 
            Technology of the Committee on Government 
            Reform, joint with the Subcommittee on 
            Technology of the Committee on Science,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 1:07 p.m., in 
room 2318, Rayburn House Office Building, Hon. Connie Morella 
(chairwoman of the Subcommittee on Technology) and Hon. Stephen 
Horn (chairman of the Subcommittee on Government Management, 
Information, and Technology) presiding.
    Present: Representatives Morella, Horn, Biggert, Ose, 
Turner, Gutknecht, Miller, Barcia, Rivers, Stabenow, and 
Jackson-Lee.
    Staff present from the Subcommittee on Government 
Management, Information, and Technology: J. Russell George, 
staff director and chief counsel; Matt Ryan, senior policy 
director; Bonnie Heald, director of communications, and 
professional staff member; Mason Alinger, clerk; Richard Lukas, 
intern; Faith Weiss, minority counsel, Committee on Government 
Reform; and Earley Green, minority staff assistant, Committee 
on Government Reform.
    Staff present from the Subcommittee on Technology: Jeff 
Grover, staff director; Ben Wu, professional staff member; Joe 
Sullivan, clerk; Michael Quear and Martin Ralson, minority 
professional staff members.
    Mrs. Morella. The joint hearing of the Technology 
Subcommittee of the Science Committee as well as the 
Subcommittee on Government Management, Information, and 
Technology of the Government Reform Committee will come to 
order.
    On March 31st, the administration announced that, according 
to the most recent data obtained from agencies, 92 percent of 
Federal systems had met the governmentwide goal of Y2K 
compliance. With less than 8\1/2\ months remaining until 
January 1, 2000, it is heartening to hear that nearly all 
mission-critical systems within the 24 major Federal 
departments and agencies are Y2K compliant.
    The administration tells us that these systems have been 
tested and implemented, and will be able to accurately process 
data into the year 2000. This is certainly a welcome change 
from a year ago, and it is a tribute to the thousands of 
dedicated and skilled Federal employees who have been working 
to ensure that critical government operations and services will 
continue uninterrupted into the next millennium and beyond.
    While progress appears to have been made in addressing Y2K 
internally, each agency must now begin the more vital function 
of outlining actions that are needed for systems to work 
externally. The new challenges facing each agency include 
performing end-to-end testing, as well as developing business 
continuity and contingency planning. These challenges are 
certainly not minor. No one should be fooled or lulled into the 
false sense of security over the recent Federal Y2K 
improvements. Much more work remains to be done to ensure the 
continuity of our critical Federal programs and systems. We, in 
Congress, will continue to provide vigilant Y2K oversight and 
intend to work diligently and cooperatively with the 
administration to ensure the delivering of vital services to 
the American people.
    Today we have a distinguished panel of witnesses to assist 
our House Y2K Working Group in receiving a current status 
report on the efforts of the U.S. Government in correcting the 
year 2000 computer problem after the President's March 31, 1999 
deadline.
    This hearing will present the Office of Management and 
Budget and the General Accounting Office with an opportunity to 
comment on the administration's year 2000 efforts. In addition, 
this hearing will lay the groundwork for the administration to 
demonstrate the overall readiness of its critical business 
functions--functions that the American public rely upon.
    There will also be testimony from four agencies that have 
yet to testify in joint Y2K hearings before the Technology 
Subcommittee and the Government Management, Information, and 
Technology Subcommittee. And that is the Department of 
Agriculture, the Agency for International Development, the 
Department of State, and the Department of the Treasury. It 
should be noted, however, that these 4 agencies were among the 
11 agencies that were not yet totally compliant by the March 
31st deadline.
    I look forward to hearing from our panel, and I am now 
going to turn to the co-Chair of this hearing, the chairman of 
the Government Management, Information, and Technology 
Subcommittee, the gentlemen from California, Mr. Horn.
    Mr. Horn. Thank you very much, Madam Chairman. We have just 
passed a significant milestone in the Federal Government's 
efforts to update its computers systems for the year 2000. On 
March 31st, the President's deadline for all mission-critical 
computers to be year 2000 compliant, 92 percent of the 
Government's departments and agencies reported that their 6,123 
mission-critical computer systems are ready for the new 
millennium. We, in Congress, are pleased with this progress, 
considering that only three short years ago several agencies 
were unaware of the programming glitch that could shut down or 
corrupt their computer systems on January 1, 2000.
    A lot of hard work has been going on inside the executive 
branch of the Federal Government. Nevertheless, 8 percent of 
the agencies' mission-critical systems failed to meet the 
President's March 31st deadline. These systems, found within 11 
departments, are vital to the health and well-being of millions 
of Americans. They must be fixed before we can focus entirely 
on end-to-end testing. From food stamps to Medicare and 
Medicaid, these programs serve our most vulnerable citizens--
the seniors, the poor, the chronically ill.
    Today's hearing marks the beginning of a new phase in our 
year 2000 oversight. We will move from our focus on computer 
systems to begin examining entire Federal programs. We want to 
be assured that these programs operate seamlessly, whether the 
date is December 31, 1999, or January 1, 2000. We are pleased 
to welcome the witnesses before us today, and I look forward to 
their testimony.
    Thank you, Madam Chairman.
    Mrs. Morella. Thank you, Chairman Horn.
    It is now my pleasure to recognize the ranking member of 
the Technology Subcommittee, the gentlemen from Michigan, Mr. 
Barcia.
    Mr. Barcia. Thank you, Chairwoman Morella and Chairman 
Horn. I want to join my colleagues in welcoming everyone to 
this afternoon's hearing. And while this series of hearings on 
Federal agencies' Y2K efforts have been largely critical of the 
administration, I would like to take this opportunity to 
compliment their recent efforts.
    Last Wednesday, the White House announced that 92 percent 
for Federal Michigan--excuse me, mission----
    Mrs. Morella. Michigan--see? [Laughter.]
    Mr. Barcia [continuing]. Michigan, my home State--mission-
critical systems were now Y2K compliant. In fact, 13 of the 
largest departments reported 100 percent compliance with their 
Michigan--excuse me, mission-critical systems. [Laughter.]
    In addition, the FAA recently tested its systems at Denver 
Stapleton Airport and found no noticeable problems. Ultimately, 
while much work remains to be done, our Federal agency should 
be commended for their efforts. I also want to commend OMB for 
their leadership on this issue. A recent memo to the agency 
heads from Jack Lu highlights the need to ensure that not only 
must agency systems be compliant, but that their data exchange 
partners be Y2K compliant as well. Further, Director Lu called 
for the need to publicly demonstrate the overall readiness of 
integrated Federal, State, and private systems, as well as the 
programs that they support. I am pleased to see OMB take this 
leadership role, as Director Lu's memo outlines my own concerns 
regarding Federal Y2K efforts.
    Recognizing the need to share detailed information with the 
public, testing data exchanges, and developing complementary 
business contingency plans are consistent with key provisions 
in H.R. 4682, which I introduced at the end of the last 
Congress.
    As I said earlier, much work remains to be done, and today 
we will hear from four agencies who are behind schedule. 
However, given the bleak prognosis we heard 1 year ago, much 
progress has been made and credit should be given where credit 
is due. I want to thank all of the witnesses for appearing 
before the committee, and I look forward to your comments.
    Thank you, Madam Chairman.
    Mrs. Morella. Thank you, Mr. Barcia.
    I would now like to recognize Mr. Turner, the gentleman who 
is on the Government Reform Committee, for any opening comments 
he may have.
    Mr. Turner. March 31st was the self-imposed deadline for 
the executive branch to have implemented Y2K-compliant computer 
systems and, as of that date, the Federal Government reported 
that 92 percent of its systems were compliant. This is evidence 
of a strong commitment and solid progress in the executive 
branch on the issue.
    The Federal Government, of course, cannot afford to relax 
its efforts. A number of significant Federal agencies have not 
finished their Y2K conversion, as has been revealed by this 
subcommittee's review of the status of the Department of 
Defense and the Federal Aviation Administration, both of which 
are behind in their repairs. Today we will consider the status 
of Y2K conversion in several other agencies, including the 
Departments of State, Treasury, Agriculture, and the Agency for 
International Development.
    Conversion work is not finished when the systems are 
repaired; systems must be tested. The Government must conduct 
end-to-end and business continuity testing for significant 
Federal systems. That is, instead of simply testing one system 
individually, the Government must test how well its systems 
coordinate with other systems in performing business functions.
    Successful functioning of Government systems on January 1, 
2000 will require coordination and testing of Federal, State, 
and local computer systems, as well as those in the private and 
non-profit sectors. Government functions not only cross 
departmental lines, but also cross Federal, State, and local 
jurisdictions. It is clearly not enough to assure that the 
Federal systems work, because States administer many important 
Federal benefits, and if these State systems fail, people will 
not get their benefits, and the Federal Government will in turn 
fail.
    Therefore, I would like to thank the witnesses who are 
gathered here today to explain the remaining work that the 
Federal Government will be undertaking before the date change, 
and I would urge that this effort be devoted to assuring that 
the Federal, State, and local systems collectively can deliver 
the necessary benefits and crucial government services.
    Thank you, Madam Chairman.
    Mrs. Morella. Thank you, Mr. Turner.
    [The prepared statement of Hon. Judy Biggert, Hon. Sheila 
Jackson-Lee, and Hon. Debbie Stabenow follow:]


[GRAPHIC] [TIFF OMITTED]61120.001

[GRAPHIC] [TIFF OMITTED]61120.002

[GRAPHIC] [TIFF OMITTED]61120.003

[GRAPHIC] [TIFF OMITTED]61120.004

[GRAPHIC] [TIFF OMITTED]61120.005

    Mrs. Morella. Distinguished panelists, I am going to ask 
them if they will rise, since it is a policy of this committee 
to swear in those who will testify and raise your right hands.
    [Witnesses sworn.]
    Mrs. Morella. The record will indicate affirmative response 
from all, and we do have a distinguished panel.
    We have Ms. Deidre Lee, who is the Acting Deputy Director 
for Management of the Office of Management and Budget; Mr. Joel 
Willemssen, who is no stranger to this committee, who is the 
Director of Civil Agencies Information Systems of the U.S. 
General Accounting Office; we have Ms. Ann Reed, who is the 
Chief Information Officer of the U.S. Department of 
Agriculture; we have Richard Nygard, who is the Chief 
Information Officer for the U.S. Agency for International 
Development; we have Mr. Fernando Burbano, who is the Chief 
Information Officer for the U.S. Department of State, and we 
have Mr. James Flyzik, who is the Chief Information Officer for 
the U.S. Department of Treasury.
    Ladies and Gentlemen, it is customary that we give you each 
about 5 minutes maximum. Anything that you have submitted to us 
in its entirety will be included in the record, and that gives 
us an opportunity, then, to fire away with any questions.
    So, if that order is acceptable to you, we will start off 
then with you, Ms. Lee.

     STATEMENTS OF DIEDRE LEE, ACTING DEPUTY DIRECTOR FOR 
MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET; FERNANDO BURBANO, 
 CHIEF INFORMATION OFFICER, U.S. DEPARTMENT OF STATE; RICHARD 
      NYGARD, CHIEF INFORMATION OFFICER, U.S. AGENCY FOR 
  INTERNATIONAL DEVELOPMENT; ANNE F. REED, CHIEF INFORMATION 
 OFFICER, U.S. DEPARTMENT OF AGRICULTURE; JOEL C. WILLEMSSEN, 
  DIRECTOR, CIVIL AGENCIES INFORMATION SYSTEMS, U.S. GENERAL 
   ACCOUNTING OFFICE; AND JAMES J. FLYZIK, CHIEF INFORMATION 
            OFFICER, U.S. DEPARTMENT OF THE TREASURY

    Ms. Diedre Lee. Are we on?
    Mrs. Morella. Yes.
    Ms. Diedre Lee. Very good.
    Good afternoon, Chairwoman Morella, Chairman Horn, members 
of the subcommittee.
    As you know, I have been Acting Deputy Director for 
Management since April 1st. And as any average person, I am 
certainly aware of the Y2K issue. But I am still somewhat new 
to this issue at OMB, and I have been working closely with the 
OMB staff to come up to speed. I am pleased to appear before 
the subcommittee today to discuss the Government's progress on 
the year Y2K. I will do my best to answer your questions.
    Chairwoman Morella and Chairman Horn, I would like to start 
by thanking you and the other members of the subcommittee for 
your ongoing interest in Y2K problem and its potential 
implications for our country. Your focus has increased 
awareness, emphasized the importance of the remediation 
activities, and helped to ensure that we will be ready.
    Today, I would briefly like to address the progress that 
has been made in the Federal arena; our challenges and next 
steps, and funding.
    As you know, the administration has been working for more 
than 3 years on the problem. Agencies have been working through 
the phases of awareness, assessment, renovation, validation, 
and implementation. Each phase has been a challenging one as 
Federal agencies work through the process of systematically 
identifying and prioritizing mission-critical systems; 
addressing the implications of the systems and equipment 
containing embedded chips, such as security systems, heating 
and air conditioning units, et cetera; working with data 
exchange partners; testing and retesting systems; and working 
with service-delivery partners such as contractors, banks, 
vendors, State, local, and tribal governments to ensure that 
the programs will be ready, and they can be supported by the 
Federal Government.
    Last year, former Director Franklin Raines established the 
ambitious goal of having 100 percent of the Federal 
Government's mission-critical systems Y2K compliant by March 
31, 1999--well ahead of many private sector system remediation 
schedules. I am pleased to report, as you have all noted, that 
the Federal Government nearly achieved this goal. As John 
Koskinen and former Deputy Director for Management, Ed DeSeve, 
noted at the National Press Club on March 31st, ``92 percent of 
the Federal Government's mission-critical systems met the 
governmentwide goal of being Y2K compliant by March 31, 1999. 
These systems have been remediated, tested, and they are back 
in operation.''
    This represents a dramatic improvement from the progress of 
the Federal Government a year ago, when in February 1998, only 
35 percent of the agency mission-critical systems were 
compliant. Overall progress in the Federal Government is a 
tribute to the hard work, skillful and dedicated work of 
thousands of Federal employees and contractors. And while much 
work remains to be done, we fully expect the Government's 
mission-critical systems will be Y2K compliant before January 
1, 2000.
    While several agencies are here to discuss their specific 
progress--and you noted Treasury Department, the Department of 
Agriculture, the State Department, and the U.S. Agency for 
International Development--I will provide you with some overall 
figures. And, again, as you noted, 13 of the 24 major 
departments now report that 100 percent of their mission-
critical systems are Y2K ready, and those are listed in my full 
testimony, so I will move on.
    Of the remaining, three agencies are between 95 and 99 
percent; four between 90 and 94 percent ready; and three 
between 85 and 90 percent. So, we are up there in the higher 
percentage ratings.
    Based on monthly agency reports received April 10th--so 
there is a little bit of an update here--we gained 1 percent 
over the last week, and we are now at 93 percent ready. And 
from a base of about 6,100, critical systems 408 remain to be 
finished. And of those, 163 are non-defense and 245 are 
defense.
    We are preparing to issue guidelines asking the agencies to 
report, beginning May 15th, on their remaining mission-critical 
systems by name and to include a timetable for completing the 
work. And then, agencies will report monthly. So, that will 
identify our mission-critical systems.
    Agencies have set realistic goals for the completion of 
their work and are working hard to finish these systems. We are 
confident that every mission-critical system will be ready by 
year 2000. However, the critical task is to make sure that not 
just systems, but the programs that they support will be ready. 
In response, we are taking a look at the Federal Government 
from the individual's point of view to determine what programs 
have the most direct and immediate impact on the public.
    On March 26th, OMB issued guidance to the agencies that 
identified 42 high-impact programs and directed Federal 
agencies to take the lead on working with Federal agencies, 
State, tribal, and local governments, contractors, banks, and 
others to ensure that these programs critical to public health, 
safety, and well-being will provide undisrupted services. 
Examples include Medicare, unemployment insurance, disaster 
relief, weather service, et cetera. Agencies have also been 
asked to help their partners develop year 2000 programs and to 
ensure that their reports are ready, if they have not already 
done so. Our goal is to publicly demonstrate that these 
programs will operate seamlessly.
    By March 15, 1999, agencies have also been asked to provide 
to OMB a schedule and milestones for key activities in each 
plan, a monthly report of progress against that schedule, and a 
plan date for an event or events to announce that the program 
as a whole is Y2K ready. Clearly, this initiative requires a 
great deal of cooperation and hard work, but success is in 
everyone's interest.
    And while these programs are critical to the work of 
government, the smooth operations of government also rely on 
functions that may not have an immediate and direct effect on 
the public at large, but, nevertheless, are essential to sound 
management of the agency, such as financial management systems 
or personnel systems. These functions have been identified as 
core business functions, and are also being worked.
    Agencies are developing business continuity and contingency 
plans to assure that their core business functions will 
operate. We have directed the agencies to follow the GAO 
guidance on preparing their plans, and additionally, many 
agencies are working closely with their Inspectors General and/
or expert contractors in the development of the plans. While it 
is expected that the business continuity and contingency plans 
will continue to change through the end of the year, as 
agencies update and refine their assumptions, and as they 
continue to test and modify their plans, we have asked agencies 
to submit their plans no later than June 15. We will work with 
the agencies to assure governmentwide consistency of their 
basic assumptions surrounding the year 2000.
    Funding: The most recent allocation of Y2K emergency 
funding transmitted on April 2, 1999, provides a total of $199 
million to 20 Federal agencies. Fourteen of these agencies have 
received emergency funding in earlier allocations, and funding 
will be used for various Y2K compliance activities, including 
testing to ensure that the systems are Y2K compliant; 
replacement of embedded computer chips; creation and 
verification of continuity of operation and contingency 
planning; and cooperative activities with non-Federal entities 
in support of the President's Council on Year 2K Conversion.
    Agencies have benefited greatly from access to emergency 
funds and much of their progress can be credited to this. 
Continued access to emergency funding is essential to continued 
progress on the Y2K problem. However, the Senate version of the 
fiscal year 1999 emergency supplemental appropriation bill 
would reduce the non-defense Y2K emergency fund by $973 
million. I urge the conferees to strike this reduction, which 
is unwise at this time. Not only would it eliminate the 
remaining balance in the emergency fund of approximately $500 
million, but it would also force agencies to stop planned and 
ongoing procurements for Y2K-related activities. It would also 
force agencies to terminate contracts, where this can be done 
without penalty, in order to recapture the additional $468 
million.
    Resources must remain available for agencies to carry out 
aggressive strategies to achieve compliance and to develop and 
implement contingency plans that will ensure uninterrupted 
operations and service delivery. In recent months, the pace 
toward achieving governmentwide compliance has quickened 
considerably. Much of this improvement can be attributed to the 
emergency fund, which has ensured that adequate resources 
remain available to agencies as they develop and refine 
effective strategies for achieving Y2K compliance. With the 
year 2000 approaching, we should build on our success, not take 
steps to undermine it.
    In conclusion, during the 262 days remaining before the 
year 2000, we plan to complete work on the remaining mission-
critical systems, with monthly reports beginning May 15th; we 
plan to conduct end-to-end testing with the States and other 
key partners, placing special emphasis on readiness of programs 
that have a direct impact on the public; and we plan to test 
and complete business continuity and contingency plans, are due 
by June 15th.
    This is a busy time, so I would like to thank you very much 
for the opportunity to allow me to share this information with 
you on the administration's progress. OMB remains committed to 
working with the committee and the Congress on this critical 
issue, and I would be pleased to answer any questions you may 
have.
    [The prepared statement of Ms. Lee follows:]

    [GRAPHIC] [TIFF OMITTED]61120.006
    
    [GRAPHIC] [TIFF OMITTED]61120.007
    
    [GRAPHIC] [TIFF OMITTED]61120.008
    
    [GRAPHIC] [TIFF OMITTED]61120.009
    
    [GRAPHIC] [TIFF OMITTED]61120.010
    
    Mrs. Morella. Thank you, Ms. Lee. We let you exceed the 
deadline because you had so many milestones and dates to tell 
us about, we felt were very important.
    It is a pleasure now to recognize Mr. Willemssen from GAO.
    Mr. Willemssen. Thank you, Chairwoman Morella, Chairman 
Horn, Ranking Member Barcia, Ranking Member Turner. Thank you 
for inviting GAO to testify today on the status of 
governmentwide Y2K. As requested, I will briefly summarize our 
statement.
    As noted, the Federal Government's most recent reports 
showed continued improvement in addressing Y2K. Despite this 
progress, however, there are vital government functions with 
systems that are not yet compliant. Additionally, not all of 
the government systems have undergone independent verification 
and validation.
    In addition, achieving compliance of individual systems, 
while very important, does not necessarily ensure that a key 
business function will continue to operate through the change 
of the century. Other key actions are essential to achieving 
this goal. For example, as noted earlier, end-to-end testing is 
extremely important. That is needed to verify that a set of 
interrelated systems supporting an overall function will work 
seamlessly and work together as we move to the next century.
    In addition, business continuity and contingency plans are 
essential. In this regard, OMB has previously asked Federal 
agencies to identify their core business functions that are to 
be addressed in their business continuity and contingency 
plans, as well as to provide key milestones for the development 
and testing of such plans.
    To ensure that key activities, such as end-to-end testing 
and contingency planning, are fully addressed for the most 
important Government programs, we have previously recommended 
to the executive branch that the Government set Y2K priorities.
    In late March, OMB implemented our recommendation by 
issuing a memorandum to Federal agencies identifying 42 high-
impact programs. For each program, a lead agency was designated 
to take a leadership role in convening program partners in 
developing a plan to ensure that the program will operate 
effectively. Two days from now, lead agencies are to provide to 
OMB a schedule and milestones of the key planned activities for 
these high-impact priorities. The quality and completeness of 
these plans will be a major factor in the success of this 
effort and in assuring the public that Y2K will be addressed 
for the most critical government functions.
    About one-quarter of these high-impact programs identified 
by OMB are State-administered programs, such as food stamps and 
Medicaid. As we previously testified, several of these 
programs, such as Medicaid, are at risk. Recent data from OMB 
on State-administered systems shows that there is a continuing 
reason for concern and a need for Federal/State partnerships. 
Specifically, there is a large number of State systems reported 
not to be due to be compliant until the last half of 1999.
    One agency that has worked for some time on Y2K with its 
State partners is the Social Security administration. Since our 
report in late 1997, SSA has strengthened its approach with 
States on disability determination services. It designated a 
full-time team with project managers and requested biweekly 
status reports, and obtained from each State a plan specifying 
milestones, resources, and schedules for completing Y2K tasks. 
SSA's activities in this area can serve as a model for other 
Federal agencies as they go forward with their State-
administered programs and their State partners.
    In summary, it is clear that the Federal Government has 
made excellent progress on Y2K over the last couple of years. 
However, much more remains to be done to ensure the continued 
delivery of vital services. That concludes a summary of my 
statement. At the end of the panel, I will be pleased to 
address any questions you may have. Thank you.
    [The prepared statement of Mr. Willemssen follows:]

    [GRAPHIC] [TIFF OMITTED]61120.011
    
    [GRAPHIC] [TIFF OMITTED]61120.012
    
    [GRAPHIC] [TIFF OMITTED]61120.013
    
    [GRAPHIC] [TIFF OMITTED]61120.014
    
    [GRAPHIC] [TIFF OMITTED]61120.015
    
    [GRAPHIC] [TIFF OMITTED]61120.016
    
    [GRAPHIC] [TIFF OMITTED]61120.017
    
    [GRAPHIC] [TIFF OMITTED]61120.018
    
    [GRAPHIC] [TIFF OMITTED]61120.019
    
    [GRAPHIC] [TIFF OMITTED]61120.020
    
    [GRAPHIC] [TIFF OMITTED]61120.021
    
    [GRAPHIC] [TIFF OMITTED]61120.022
    
    [GRAPHIC] [TIFF OMITTED]61120.023
    
    [GRAPHIC] [TIFF OMITTED]61120.024
    
    [GRAPHIC] [TIFF OMITTED]61120.025
    
    [GRAPHIC] [TIFF OMITTED]61120.026
    
    [GRAPHIC] [TIFF OMITTED]61120.027
    
    Mrs. Morella. Now, I am pleased to recognize Ms. Reed from 
the Department of Agriculture.
    Ms. Reed. Thank you, Chairwoman Morella, Chairman Horn, 
Ranking Member Barcia. I appreciate this opportunity to share 
with you where the Department of Agriculture stands with 
respect to Y2K.
    We are committed to assuring that our programs will be 
viable after January 1st. We recognize our responsibility for 
food safety and inspection, food and nutrition programs, rural 
economic development, natural resources and conservation, 
research and education, and, of course, programs which support 
America's farmers.
    USDA is currently tracking 350 mission-critical systems; 93 
percent of these systems are compliant and fully deployed. We 
have an additional number of systems where the remediation work 
has been done, but eight of them have yet to achieve full 
deployment; ten systems are still undergoing remediation or 
replacement; and five are anticipated to be retired.
    Secretary Glickman has identified 52 of our systems as 
departmental priority systems because the programs that they 
support have major health and safety implications, financial 
impact, or economic repercussions.
    Our priorities are to achieve 100 percent compliance and 
implementation of all critical mission-critical and non-
mission-critical systems, conduct the end-to-end testing, 
coordinating with the States, banks, and other Federal agencies 
as appropriate, continue to perform independent validation and 
verification on our priority systems, finalize our business 
continuity and contingency plans, and continue to assess Y2K 
impacts on the food supply.
    OMB has identified four USDA programs on its list of 40 
high-impact Federal programs. They include three nutrition 
programs; the food stamp program, women and infant children 
program, and child nutrition programs.
    The fourth is food safety and inspection. Food and 
nutrition programs are vital to the availability of food for 
millions of Americans, especially those who are neediest. The 
Food and Nutrition Service, FNS, has been working diligently to 
remediate its own mission-critical systems that support these 
programs. Fourteen are fully compliant; the final two will be 
compliant by the end of this month. FNS has performed testing 
on its communication links between the State systems and our 
internal systems. Testing to this point has been successful.
    We are working with State partners and territories who 
actually deliver the services to the public. Since June 1997, 
USDA and other Federal departments have jointly established 
expedited approval procedures for State acquisition of ADP 
resources necessary to support their Y2K efforts. We believe 
that most of the States are using their own resources for this, 
since only two have actually chosen to use our expedited 
approval.
    FNS is also tracking each State's progress. They must 
certify to us that they are compliant in hardware, software, 
and telecommunications. They must also share with us their 
business continuity and contingency plans.
    The Food Safety Inspection Service regulates a vital part 
of our food supply: meat, poultry, and eggs products. Twenty-
six States have programs which complement the FSIS health 
program. Within FSIS, our Food Safety and Inspection Service, 
seven of eight mission-critical systems are now compliant and 
fully deployed. The remaining one should be done by the end of 
this summer. We have an overall business continuity contingency 
plan and are working very closely with the States and with the 
plants to assure that they are aware of what needs to be done 
to support Y2K.
    In addition to these programs, there are other programs 
that the Department is treating as high impact, because of 
their economic, financial, and health and safety impact. These 
include farm loan and assistance programs; and rural 
development programs; animal, plant and health inspection 
programs; fire management program; and the Federal employee 
payroll system and Thrift Savings Plan. To date, 47 of the 
systems which support these mission-critical priority programs 
are compliant and fully deployed; five systems remain to be 
completed and should be completed no later than July.
    USDA also chairs the Food Supply Working Group of the 
President's Council on Year 2000 Conversion. I will just share 
with you that we do not anticipate any major disruptions to the 
food supply, but will continue to work and report on this area, 
as we will continue to support outreach to our small 
businesses. We have a major outreach program that we have 
undertaken in cooperation with the Department of Commerce and 
the Small Business Administration.
    In conclusion, all of our work is designed to ensure that 
USDA's critical programs are available to the American public 
without disruption, and we have a lot of work left to do, but 
we believe that we are up to this challenge.
    Thank you.
    [The prepared statement of Ms. Reed follows:]

    [GRAPHIC] [TIFF OMITTED]61120.028
    
    [GRAPHIC] [TIFF OMITTED]61120.029
    
    [GRAPHIC] [TIFF OMITTED]61120.030
    
    [GRAPHIC] [TIFF OMITTED]61120.031
    
    [GRAPHIC] [TIFF OMITTED]61120.032
    
    [GRAPHIC] [TIFF OMITTED]61120.033
    
    [GRAPHIC] [TIFF OMITTED]61120.034
    
    [GRAPHIC] [TIFF OMITTED]61120.035
    
    [GRAPHIC] [TIFF OMITTED]61120.036
    
    [GRAPHIC] [TIFF OMITTED]61120.037
    
    [GRAPHIC] [TIFF OMITTED]61120.038
    
    [GRAPHIC] [TIFF OMITTED]61120.039
    
    [GRAPHIC] [TIFF OMITTED]61120.040
    
    [GRAPHIC] [TIFF OMITTED]61120.041
    
    [GRAPHIC] [TIFF OMITTED]61120.042
    
    [GRAPHIC] [TIFF OMITTED]61120.043
    
    Mrs. Morella. Thank you, Ms. Reed.
    We have been joined by Mr. Miller from California; by Mrs. 
Biggert from Illinois; and now we recognize Mr. Nygard.
    Mr. Nygard. Thank you, Madam Chairwoman. Madam Chairman, 
members of the subcommittee----
    Mrs. Morella. Excuse me, Mr. Nygard. We are going to have a 
vote coming up, but I think we will have a chance to hear your 
testimony and then go vote. We will recess for about 15 minutes 
and then come back, and pick up then with the Department of 
State.
    Thank you.
    Mr. Nygard. Should I proceed?
    Mrs. Morella. We want to make sure--we never feel 
comfortable or secure around here with those buzzers. They 
succeed--OK, great. You may proceed. [Laughter.]
    Mr. Nygard. Thank you, Madam Chairwoman. Madam Chairwoman, 
Chairman Horn, members of the subcommittee, I am pleased to 
appear today to report on the progress of the U.S. Agency for 
International Development, or USAID, in achieving Y2K systems 
compliance. In short, we at USAID are confident that our 
mission-critical systems will be Y2K compliant well before the 
end of this year, and that our agency will operate successfully 
on and after January 1st of next year.
    Let me talk, first, about our mission-critical systems. As 
you are aware, we did not achieve Y2K compliance for these 
systems by the end of March, the governmentwide target date. 
Until early February, we had expected that three of the five 
systems that need to be repaired would be implemented by March 
31st, but problems discovered during the testing phase delayed 
our efforts and forced us to move back our completion dates. 
These delays in all three systems were the result of problems 
encountered outside the systems themselves and were caught as 
we tested the broader processes that the systems support.
    Our time and attendance systems, for example, rely on the 
government-wide International Cable System to transmit data 
back to Washington from our field posts. A program which 
extracts data from the cable system needed to be repaired to be 
Y2K compliant. The problem with the other two systems, 
personnel and payroll, resulted from an interface or linkage 
between the two systems whose code was not Y2K compliant. Once 
discovered, these problems were quickly fixed. All three 
systems are back in testing, and we plan for them to be fully 
implemented by May 15th.
    Before turning to our other mission-critical systems, let 
me clarify what USAID defines as ``implementing its Y2K-
compliant systems.'' A system is implemented, in our view, when 
it is up and fully running, both at our headquarters and our 
overseas posts. This means our testing must include not only 
the systems themselves, but any connections to other systems or 
processes, such as that to the cable system mentioned above, 
that are needed for the mission-critical system to operate. It 
also means that our field posts, which we call missions, must 
have received and put into operation any necessary hardware and 
software needed to run the repaired systems.
    This point is relevant to our fourth mission-critical 
systems, overseas accounting. This system is renovated and 
field testing at two overseas post will commence next week. The 
required software and equipment have been sent to our 40 
accounting stations overseas, and we expect implementation to 
be complete worldwide by the end of May. The main risk for this 
system is logistical rather than technical. The possibility 
always exists that equipment being sent overseas may be lost or 
stolen in transit. We are taking all possible precautions in 
this regard, including having our overseas staff pick up the 
equipment at airports immediately when it arrives in the 
country.
    Our fifth critical system is USAID's new management system, 
which performs accounting, budgeting, and procurement functions 
at our Washington headquarters. The complexity of this system 
means that substantial work is needed to renovate it. We have 
utilized funding from the government-wide Y2K supplemental to 
apply additional programming and other resources to the task, 
and believe it will be renovated by the end of this month and 
fully tested and implemented by the end of July.
    Our efforts have been greatly assisted by the methods of 
program management and measurement used by our prime 
contractor. Each step is laid out carefully and progress toward 
implementation of each system is quantified in terms of points 
for value earned to date. This approach has given us a high 
level of confidence that all of our mission-critical systems 
will be up and running, Y2K compliant worldwide, within the 
next few months, because we now know precisely what has been 
done and what needs to be done.
    Let me next mention the steps we are taking to assure that 
our agency will be able to carry out essential business 
functions if automated information systems are unable to 
operate for reasons beyond our control. Since last fall, our 
Chief Financial Officer staff has been working to develop 
contingency plans that will assure the continuity of business 
operations for three basic processes: funds distribution, 
obligation of funds, and payments. All are broad categories and 
involve multiple applications.
    Payments, for example, includes providing funding to 
vendors and grantees who deliver goods and services to USAID, 
but also includes meeting the agency payroll. I am pleased to 
report that these contingency plans, whose preparation is being 
assisted by a highly qualified contractor, are well along and 
will be field tested and finalized during the summer.
    A final point I want to discuss is the ability of our field 
missions overseas to continue operating and providing 
assistance to the countries in which they are located. We have 
sent teams from Washington to 50 of our overseas posts to 
examine each mission's operating systems, the information 
technology used in its assistance programs, and in many cases 
the host country infrastructure upon which our missions depend 
to operate. We are working closely with the Department of State 
and other agencies who operate overseas to assure that 
essential functions will continue next January.
    As we get closer to January 1, 2000, more information will 
be generated about the situation in the countries where we 
work, and
we will have a much better idea of the extent to which our 
ability to operate will be affected. This matter is of great 
concern to us, and we will continue to watch it closely country 
by country.
    That completes my statement. Thank you very much.
    [The prepared statement of Mr. Nygard follows:]

    [GRAPHIC] [TIFF OMITTED]61120.044
    
    [GRAPHIC] [TIFF OMITTED]61120.045
    
    [GRAPHIC] [TIFF OMITTED]61120.046
    
    [GRAPHIC] [TIFF OMITTED]61120.047
    
    [GRAPHIC] [TIFF OMITTED]61120.048
    
    Mrs. Morella. Thank you very much, Mr. Nygard.
    Sorry for the interruptions. We are going to temporarily 
recess for about 20 minutes, and then we have not only this 
vote, but then another 5-minute vote. So, we are now recessed.
    [Recess.]
    Mrs. Morella. We will reconvene the joint hearing of the 
two subcommittees in the interest of time, and I am going to 
recognize, if he is ready, Mr. Burbano, from the Department of 
State.
    Mr. Burbano. Thank you, Chairwoman Morella and other 
distinguished members.
    I plan to provide you with an overview of the Department's 
year 2000 challenge and the status of some of our key year 2000 
initiatives. Our discussion today will focus on highlighting 
several noteworthy activities within the Department which will 
progressively ensure State's core business functions operate 
seamlessly during, and beyond, the millennium crossover.
    Let me begin by saying the Department has maintained year 
2000 as one of its top management priorities. From the 
Secretary down, we are committed to ensuring the Department's 
systems and operations will run uninterrupted through and 
beyond the millennium rollover. I am happy to report that our 
focus and hard work is yielding results. As evidence of our 
progress, OMB recently recognized the Department's improved 
results by raising us from tier one, inadequate progress, to 
tier two, progress. OMB and GAO also cited State for progress 
in other areas, including modernization in computer security, 
and for our leadership role in providing year 2000 support to 
U.S. operations overseas.
    From an organizational perspective, the Department has 
taken many steps to ensure that it has the appropriate 
management talent, structure, and approach in place to 
successfully manage State's significant year 2000 challenge. 
Specifically, we have assembled an experienced management team 
to oversee State's year 2000 program.
    I personally bring previous year 2000 management experience 
at the National Institutes of Health, and I have established a 
Deputy CIO for year 2000 to manage the day-to-day operations of 
the Year 2000 Program Management Office. Along with the Deputy 
CIO for year 2000, I have met separately with each of the 
Assistant Secretaries on a monthly basis to review individual 
bureau progress toward remediation, project test results, 
contingency planning efforts, and other year 2000 related 
activities. Additionally, the Under Secretary for Management 
meets monthly with the Assistant Secretaries at a steering 
committee meeting to manage State's year 2000 efforts 
throughout the Department.
    From a remediation perspective, the Department of State has 
identified 59 systems which support enterprise-wide mission-
critical functions. Additionally, the Department of State has 
the unique challenge of deploying 32 of its 59, or 54 percent, 
of its mission-critical systems to over 260 posed throughout 
the world.
    In order to ensure the Department is capable of sustaining 
our core business functions beyond the year 2000, we have 
established a four-phase approach to assess, remediate, verify, 
and re-verify the readiness of our mission-critical systems and 
support of the Department's core business functions. Our four-
phase approach includes aggressive global deployment and 
implementation of our most critical technology-based systems 
and independent certification of our mission-critical 
applications, a process based on end-to-end testing of our core 
business functions, and, finally, coordinated business 
continuation activities which span the year 2000 boundary.
    First, we believe the Department of State has made 
significant progress in readying its systems for the year 2000 
rollover. The Department has completed the remediation of all 
59 mission-critical applications, and we are well underway in 
the implementation of our critical and routine systems. 
Currently, the Department has completed implementation of 53 of 
its 59 mission-critical systems, or 90 percent. Ninety-seven 
percent will be completed by the end of April and 100 percent 
by May 15th.
    Second, the Department of State has established a rigorous 
year 2000 compliance certification process, heavily leveraging 
the experience and independence of the Office of the Inspector 
General. Once a mission-critical application has been 
thoroughly and successfully tested by the bureau, verified and 
validated by the Department's Year 2000 Program Office, my 
office, along with the Department's OIG, conducts an 
independent review of the project, using the best-of-class 
certification and testing guidelines in order to determine the 
depth and breath of the bureau level of test. If necessary, the 
Department may require the bureau to conduct further testing 
and revalidation to ensure my office and the OIG are confident 
that the application will not fail in the year 2000.
    The third element of our four-phased approach is to conduct 
a process-based end-to-end test of those Department of State 
business functions which rely heavily on technology. The A-core 
functions which we test at an enterprise level include 
security, command and control, electronic mail, medical, 
logistics, personnel, financial, and counselor functions. One 
of the critical success factors of our end-to-end test includes 
our intent to test the suitability and viability of the system-
level, post-level, and Department-level contingency plans. In 
spite of our best efforts, we may have system failures in the 
Department, infrastructure failures in the countries where we 
have U.S. missions, and political or economic dislocations 
which may ultimately impact our ability to perform the business 
of State.
    As such, our forth--and at this point our final--element of 
our multi-phased approach is the development of an integrated 
and overarching business contingency plan. In order to prepare 
for potential year 2000 due system or infrastructure failures, 
the Department of State is finalizing contingency plans to 
ensure the continuation of core activities. The Department's 
contingency plan and approach focuses on maintaining the 
overall continuation of business in the face of year 2000 
failures, rather than enabling information technology.
    On the international front, the Department of State has 
developed an overseas contingency planning toolkit to allow 
each of the embassies and consulates and missions the ability 
to develop location-specific contingency plans by balancing the 
needs and priorities of the particular post against the year 
2000 readiness of that host country. While global and 
deployment and certification of our most critical systems will 
remain our top near-term priority, the Department will continue 
to aggressively pursue ways to ensure the business of State is 
able to continue beyond the year 2000.
    Thank you.
    [The prepared statement of Mr. Burbano follows:]

    [GRAPHIC] [TIFF OMITTED]61120.049
    
    [GRAPHIC] [TIFF OMITTED]61120.050
    
    [GRAPHIC] [TIFF OMITTED]61120.051
    
    [GRAPHIC] [TIFF OMITTED]61120.052
    
    [GRAPHIC] [TIFF OMITTED]61120.053
    
    [GRAPHIC] [TIFF OMITTED]61120.054
    
    [GRAPHIC] [TIFF OMITTED]61120.055
    
    [GRAPHIC] [TIFF OMITTED]61120.056
    
    [GRAPHIC] [TIFF OMITTED]61120.057
    
    [GRAPHIC] [TIFF OMITTED]61120.058
    
    [GRAPHIC] [TIFF OMITTED]61120.059
    
    [GRAPHIC] [TIFF OMITTED]61120.060
    
    [GRAPHIC] [TIFF OMITTED]61120.061
    
    Mrs. Morella. Thank you very much, Mr. Burbano.
    I wanted to acknowledge that we have here at the hearing 
Mr. Gutknecht from Minnesota and Ms. Jackson-Lee from Texas.
    Mr. Flyzik, from Department of Treasury, we look forward to 
your testimony, sir.
    Mr. Flyzik. Chairwoman Morella, Chairman Horn, members of 
the subcommittee, thank you for the opportunity to appear today 
to discuss the Department of Treasury's progress on the year 
2000 computer problem.
    As the Deputy Assistant Secretary for Information Systems 
and Chief Information Officer, I am the overall program manager 
for Treasury for this effort. I brief Secretary Rubin 
periodically and provide him a weekly report on our status. The 
Assistant Secretary for Management and CFO and I meet on a 
recurring basis with all bureau heads to review their progress, 
and, of course, we have working groups meeting regularly for 
information technology, non-IT, and telecommunications 
components of our program.
    Since I testified before Congressman Horn's subcommittee in 
March of last year, Treasury has made significant progress in 
ensuring our mission-critical systems will operate correctly, 
and our core business processes will function normally on 
January 1, 2000. Treasury has identified a total of 328 
mission-critical IT systems; 9 of these systems are being 
retired and 293, or 91.8 percent, are year 2000 compliant. 
Eight of our 14 bureaus met the mandate of March 31st. Three 
bureaus are projected to implement 11 of the remaining 26 
systems by the end of April, and thereby obtain compliance. 
Thirteen of the remaining 15 systems belonging to 3 bureaus--
the Bureau of Alcohol, Tobacco and Firearms, the Financial 
Management Service, and Internal Revenue Service--are expected 
to be implemented by midyear. The last two are new IRS 
initiatives which are being delayed until after the tax season.
    Three of Treasury's most visible bureaus--the IRS, 
Financial Management and U.S. Customs--have made tremendous 
progress this past year. IRS is now 90 percent compliant. FMS 
is able to now make 90 percent of its payments, over 775 
million annual payments, using year 2000 compliant and tested 
systems. This includes monthly Social Security and supplemental 
security payments, veterans' benefits payments, IRS tax 
refunds, Railroad Retirement Board annuity payments, Federal 
salary payments, and vendor payments. The remaining payment 
systems are on target for implementation this month, including 
the Office of Personnel Management Payment System through which 
FMS issues Federal annuity payments. The system is already 
compliant, but cannot be implemented until mid-April due to a 
dependency on a required interface.
    Customs met the goal of achieving year 2000 compliance for 
its mission-critical IT systems by September 1998. In fact, the 
Customs year 2000 program has successfully met program 
milestones established by Treasury, OMB, and the GAO. The 
combined audit team from General Accounting Office and Treasury 
and Inspector General's Office found that Customs had 
established an effective year 2000 program control. In 
addition, the Customs' year 2000 program was 1 of 19 Federal 
programs, out of a field of 200, to receive the Government 
Executive magazine's 1998 government technology leadership 
award.
    Treasury is continuing with an aggressive approach in 
addressing non-IT devices that contain embedded chips. To date, 
we are over 90 percent compliant and expect to be fully 
compliant by June. We have been proactive in working to achieve 
compliance in telecommunications systems. We expect to complete 
interoperability testing analysis, independent verification, 
and validation of our corporate voice systems in May. We are 
also endeavoring to complete interoperability and IV&V testing 
of our corporate data network, the Treasury Communications 
System, by May. I convene and chair biweekly executive meetings 
in our command center to monitor our progress on 
telecommunications.
    Last summer, we established interagency services programs 
to address interconnections and interoperability of our 
disparate systems. The scope includes all corporate Treasury 
systems, as well as non-Treasury services upon which we rely. 
We believe that we are aggressive and are a leader in the 
government for interoperability testing.
    As bureaus near completion for achieving year 2000 
compliance for their mission-critical systems, the Department 
is placing increased emphasis on year 2000 business continuity 
and contingency plans, as well as focusing on completion of 
systems and independent verification and certification 
interfaces, and then testing and changing management processes. 
We are also designing a Treasury emergency information 
coordination center that will address any contingency planning 
needs at Treasury while also specifically addressing the day-
one strategy for January 1st.
    Our cost estimates for fixing the year 2000 computer 
problem have continued to rise in our submission of the 
February report to OMB; we now estimate a total cost of $1.92 
billion, of which approximately $1.53 billion are appropriated 
resources.
    On a positive note, there are some good outcomes for the 
future as a result of our efforts on year 2000. For the first 
time ever, we have a complete inventory of all Treasury IT, 
non-IT, and telecommunication systems and components. Wherever 
possible, we are modernizing our IT, eliminating duplicative 
systems, and migrating to standard commercial solutions, as we 
fix year 2000 problems. We developed and refined program and 
project management skills, and created a new culture of our 
bureaus working together to meet common goals. Beyond year 
2000, these efforts will allow Treasury to provide improved 
government services.
    I believe that Treasury has an excellent overall year 2000 
program in place, and I will commit to you that we are taking 
all steps necessary to ensure that Treasury's core business 
processes will continue to function without disruption as we 
cross into the year 2000. Nothing less than 100 percent 
compliance and uninterrupted delivery of our core business 
services would be acceptable to the American public or to me 
personally.
    Thank you for the opportunity to meet with you today to 
discuss the actions being taken by the Department of Treasury 
in addressing the year 2000 computer problem. I will be happy 
to answer any questions you may have on this critical matter.
    [The prepared statement of Mr. Flyzik follows:]

    [GRAPHIC] [TIFF OMITTED]61120.062
    
    [GRAPHIC] [TIFF OMITTED]61120.063
    
    [GRAPHIC] [TIFF OMITTED]61120.064
    
    [GRAPHIC] [TIFF OMITTED]61120.065
    
    [GRAPHIC] [TIFF OMITTED]61120.066
    
    [GRAPHIC] [TIFF OMITTED]61120.067
    
    [GRAPHIC] [TIFF OMITTED]61120.068
    
    [GRAPHIC] [TIFF OMITTED]61120.069
    
    [GRAPHIC] [TIFF OMITTED]61120.070
    
    Mrs. Morella. Thank you, Mr. Flyzik. I am glad to see there 
are some positive spinoffs also that accrue to this diligent 
attempt for compliance.
    In terms of questioning, we will also try to take about 5 
minutes each and then go around for another round as necessary.
    So to Ms. Lee, in your testimony you mentioned Federal 
funding for year 2000, and it is true that last year Congress 
appropriated $3.35 billion just for year 2000 efforts, more 
than the administration had requested, and yet many in the year 
2000 community believe that additional funds may still be 
necessary. And, quite frankly, on many we are expecting that 
the President would request additional funding in his budget. 
Is it still OMB's position that it will not be necessary to 
appropriate additional funds for year 2000?
    Ms. Diedre Lee. At this point, we believe that the 
emergency funding is adequate to address the needs that have 
been identified.
    Mrs. Morella. How certain are you of this? What do you use 
for validation of that?
    Ms. Diedre Lee. The latest request that has been submitted 
and is in the waiting period is $199 million, which leaves 
about $500 million. Based on expenditures to date and the best 
knowns of the unknowns, we believe that is going to be 
adequate. But we will continue to keep you apprised as we work 
our way through it.
    Mrs. Morella. I hope you will. And do you think that there 
is a pretty reasonable chance that there will be a request for 
more money in the forthcoming months?
    Ms. Diedre Lee. That would be a prediction on my part. I 
would be glad to try and get you more information on that.
    Mrs. Morella. It is just very interesting, because we have 
consistently felt that the administration has underestimated 
what the cost would be.
    Ms. Diedre Lee. Well, it certainly has grown from the 
original estimate. As the agencies continue to work on this and 
as more and more of the systems are remediated, and we move 
toward the completion we believe the funding is adequate. These 
business continuity and contingency plans, will look across the 
systems and try to ensure that we really do have the seamless 
delivery. We are making a lot of progress and it appears at 
this moment that we are going to get there with the funds we 
have. I will certainly validate that and get back to you.
    Mrs. Morella. Good. Thank you.
    [The information referred to follows:]

    To date, we've utilized emergency funds mainly to remediate 
Federal systems, test and validate results and develop Business 
Continuity and Contingency Plans. We continue to review agency 
funding requirements on a case by case basis as they are 
forwarded to OMB. At the moment, we do not anticipate the need 
for additional supplemental funding for these activities. 
However, if additional funding requirements do arise, we will 
make you award of those requirements as soon as possible.

    Mrs. Morella. Mr. Willemssen, would you agree?
    Mr. Willemssen. One important thing to keep in mind is 
that, in the event that contingency plans, as we move to the 
end of 1999 and into the next century, need to be activated, it 
is important that some amount of these emergency funds be held 
back so that they can, if needed, be available for use. So I 
think that it is extremely important that you continue your 
oversight with regard to the amount of funds that have been 
allocated to date. On the DOD side, 85 percent of the amount 
has been allocated; on the civilian side, with the recent 
announcement of the fifth allocation, I believe it is in the 
neighborhood of the amount of three quarters of the $2.25 
billion. So I think it is important to keep that in mind, that 
we have some amount of funds available in the event we have to 
implement contingencies.
    Mrs. Morella. I would like to ask you, Mr. Willemssen--and 
if Ms. Lee wants to comment--what Federal agencies are you most 
concerned with regards to meeting a January 1, 2000 deadline?
    Mr. Willemssen. The agencies that we would currently view 
at the highest risk would start probably with the Health Care 
Financing Administration and the Medicare program in 
particular, but we also have concerns with Medicaid, which is, 
as you know, a State-administered program. Despite as we 
testified last month, a tremendous amount of progress made by 
the Federal Aviation Administration, we continue to view that 
also as a high-risk agency because of, as we testified, the 
many, many events and system implementations that yet remain, 
and the heavy reliance on a computerized environment to carry 
out air traffic control activities. In addition, I think HHS's 
Payment Management System, which is responsible for putting out 
more than $165 billion annually in grants and other funds to 
organizations, I think that is a fairly important system that 
needs continued attention. And then, as reflected in the 
statistics that OMB has put together based on agencies' 
submissions, the Department of Defense still has a number of 
systems that are not yet compliant.
    Mrs. Morella. Picking up on what you said and looking at 
also your testimony, which focused basically on State's systems 
and how their readiness is essential for what you have said, 
Medicare and Medicaid and food stamps, temporary assistance, 
needy families, is there legislation that would be necessary to 
help with regards to States' system that you would recommend?
    Mr. Willemssen. We do not see it at this point, the need 
for legislation. That could very well be the case within the 
next couple of months, to the extent that the partnerships that 
are necessary between the Federal Government and State 
governments do not realize themselves. Hopefully, at this point 
in time, we can reach those partnerships in a voluntary 
fashion.
    One of the items that we pointed out in the testimony also, 
and related to this, is getting the necessary information on 
data exchanges, which is integral to these kinds of programs, 
and to the extent that States and/or Federal agencies are not 
providing that kind of information, then in the very near 
future we may have to look at legislative remedies.
    Mrs. Morella. That is interesting to me. It could even be 
an Executive order, couldn't it? That could handle that?
    Mr. Willemssen. Possibly, yes.
    Mrs. Morella. And I would think that the timing would be 
such that we do not have too much time before a decision will 
have to be made.
    Mr. Willemssen. There is not much time. I would point to 
the April 15th submissions, due in 2 days on these critical 
programs--and to the extent that we see the necessary 
partnerships and detail on the plan and milestones on the 
State-administered programs, I think that will give us a higher 
level of comfort that things will be done as is necessary. To 
the extent that we do not see the detail in those submissions, 
then I think there is more room for concern.
    Mrs. Morella. Thank you.
    My time has expired. It is now my pleasure to recognize 
Chairman Horn.
    Mr. Horn. Thank you very much.
    Let me asked both the General Accounting Office and the 
representative of the Office of Management and Budget, is there 
any evidence in the recent submissions as to meeting the March 
31st deadline of manipulation of data on the status of mission-
critical systems? In another words, are agencies gaining the 
numbers to appear better positioned then they are, and what do 
we know about that. And has GAO looked at it, in particular; 
has OMB looked at it?
    Mr. Willemssen. We have looked at that when we go into 
particular agencies and looked at how they are assessing, 
renovating, validating, and implementing particular systems. We 
have not seen any evidence of an agency consciously trying to 
game the system and play the numbers in order to make 
themselves look better. We have seen evidence that, as agencies 
get into their year 2000 programs, and better understand what 
they are dealing with, and better understand what is truly 
mission-critical, that there have been some dramatic changes in 
the numbers. The further into their programs that the agencies 
are, the less change that we have seen. I know there has been 
concern about the diminishing number of mission-critical 
systems. Frankly, I am more concerned with the high-impact 
programs and making sure that the systems, the partners, the 
data exchanges, the data flows all supporting those high-impact 
programs work as intended. At this point and time, we need to 
focus on those and make sure that those are compliant from an 
end-to-end perspective.
    Mr. Horn. Ms. Lee.
    Ms. Diedre Lee. I would certainly reiterate that the number 
of mission-critical systems has fluctuated. We have watched 
that very closely to ensure that problem systems are not 
dropped off to reach 100 percent. We think we validated that is 
not the case, because, otherwise, we would have 100 percent 
across the board. Certainly I will reiterate that, when we 
first started identifying mission-critical systems, there are a 
lot of human beings involved, and, of course, ``my system is, 
by definition, mission-critical.'' As more planning was done, 
we found that although the immediate system user might consider 
it to be mission-critical, it really was not in the larger 
sense. For example there was a particular agency that 
originally had identified a system that scheduling for an 
advisory committee as mission-critical, and we subsequently 
determined that that probably could be moved to the less 
critical activity. Those kind of things have been happening.
    Mr. Horn. In you testimony, you mentioned what the Senate 
had done to some of the requests for funding. When Dr. Raines 
was the Director of the Office of Management and Budget, he put 
the emphasis--as did this Subcommittee on Government 
Management, Information, and Technology of the House--on 
reprogramming money being used to fix up the year 2000 
situation, and we strongly backed him on that. The Speaker 
noted that we would give the administration--Speaker at that 
time--every dime they want, and they got every dime they wanted 
when they gave us a decent justification.
    What has happened to the reprogramming, and couldn't have 
these agencies used more reprogramming money?
    Ms. Diedre Lee. There certainly has been a mix of the 
appropriated funds planned in the budget as well as this 
particular emergency supplemental. The definition of those 
differences were ones that were in the appropriated amount, 
were those that could be more or less foreseen and were 
planned. The emergency supplemental was used more for the 
contingency planning, and as things developed, more and more 
systems and issues were found. Reprogramming has been done to a 
certain extent, but right now we feel that the emergency 
funding is the way to solve these particular contingencies.
    Mr. Horn. Madam Chairman, without objection, I would like 
to have a letter from the Office of Management and Budget as to 
the reprogramming money that existed on September 30, 1998, the 
end of that fiscal year, and what happened to it, for all 24 
major agencies--what is the programming money; what was applied 
to year 2000; what was sent back to the Treasury, et cetera--I 
would like it included at this point in the record.
    Mrs. Morella. Without objection, so ordered.
    Mr. Horn. OK. Now, on the U.S. Agency for International 
Development, Mr. Nygard, we have watched the charts for 2 years 
now where your seven critical systems, not one of them was 
adapted to become 2000 compliant. How come? Seems to me seven 
is pretty simple to deal with.
    Mr. Nygard. Well, Mr. Chairman, seven should be pretty 
simple to deal with. As I indicated in my statement, five of 
those systems need to be repaired; one is going to be 
outsourced, and we are in the process of doing that now, and 
the seventh one will be discontinued because it is no longer 
needed. Of the other five, we had hoped that three of them 
would be completed by the deadline, but in our end-to-end 
testing we found bugs outside the systems themselves, but in 
the linkages with the other systems that caused us to delay our 
progress. The last two are continuing to move forward and four 
of the five are renovated now; the fifth will be renovated by 
the end of the this month, and we expect will be completed by 
the end of July for the last one, and by May for the others in 
terms of implementation. We simply did not make the deadline. 
We got a late start and encountered problems in testing.
    Mr. Horn. Mr. Nygard, when did you become the Chief 
Information Officer of the Agency for International 
Development?
    Mr. Nygard. Officially, I became the Chief Information 
Officer last October 28th.
    Mr. Horn. Was there one before you?
    Mr. Nygard. Yes, there was a Chief Information Officer up 
until June 1997, and then there was a gap, and I was sort of 
unofficially acting in that capacity until April of last year, 
and then from April until October I was the Acting Chief 
Information Officer.
    Mr. Horn. In 1996-1997, we were told that the Agency for 
International Development was getting new systems and, 
therefore, the problem would be solved--and this was before 
your beat, obviously--and they got the new system and nobody 
asked to make sure it was 2000 compliant. Yet when they replied 
to our survey of the Subcommittee on Government Management, 
Information, and Technology, it was clear they were buying the 
new system and did not have to worry about it because it would 
be compliant. So where did that all go wrong? It is not on your 
beat; it is prior to your beat.
    Mr. Nygard. Well, it is on the Agency's beat certainly. We 
did not buy a new system; we were attempting to develop our own 
system. We wanted to have a client-server-based system, and at 
that time there just were not government-wide, commercial, off-
the-shelf systems that we could use. So, we tried a very 
ambitious approach. The underlying software for that system was 
Oracle and was year 2000 compliant, but in the individual 
applications that we developed inside the Agency, we were not 
able to do them in a sufficiently integrated fashion, so that 
the date, the four-digit date, was done the same way in all of 
them. So what we had thought in 1996, going into the process, 
was going to result in easy year 2000 compliance, turned out 
not to be the case, and we have been working on fixing that 
since last year.
    Mr. Horn. You mentioned that we do not seem to have off-
the-shelf client-oriented systems. Now I would think that 
problem would be on the doorstep of the General Services 
Administration. I would say to Ms. Lee, and wasn't it? Why 
didn't the General Services Administration have client-
oriented, off-the-shelf stuff? We had $4 billion down the drain 
by the Federal Aviation Administration in this administration. 
We had $4 billion down the drain in the Internal Revenue 
Service in this administration. Now, where is the problem? 
There ought to be, GSA ought to have stuff off-the-shelf. Why 
doesn't it? Do you get it from GSA? Do you go out and do your 
own thing?
    Mr. Nygard. Mr. Chairman, they do now. At the time we were 
looking to develop an agency-wide system back in the early 
1990's, all of the commercial off-the-shelf systems that 
existed were still what are called mainframe systems rather 
than client-server. We were trying to move ahead of the 
technology that existed for government agencies at the time and 
to develop a client-server-based agencywide system. What exists 
now, and what we are going to be using, will be off the GSA 
schedule, commercial off-the-shelf financial system to begin 
with.
    Mr. Horn. Well, I am delighted to hear that $8 billion 
results in something. So, that is good news to me today.
    Thank you, Madam Chairman.
    Mrs. Morella. Thank you, Chairman Horn.
    I am pleased now to recognize Ms. Jackson-Lee for any 
questions she may have.
    Ms. Jackson-Lee. As usual, let me thank the chairwoman for 
what has been an ongoing series of very vital hearings, and I 
appreciate very much the insight that has been given, and of 
course experienced some of the pain that we have evidenced here 
today in some of our hearings. I would like to followup on a 
line of question- ing, and hope that the panelists recognize 
that all of us in Congress want to be able to be of help to 
this process that is befuddling most of America.
    I think the new state of confusion for the country is 
certainly surrounded or is around year 2000, meaning that if 
you go into any community and raise the question, you will get 
all kinds of answers of what it means, and I have said for some 
it means survivalist camps, and others underground facilities, 
and just a lot that we hope we can clarify. And so it is 
important that the Federal Government be as prepared as it 
possibly can.
    To followup on that, then I would like to ask all of the 
witnesses to give me a sense of what is the general level of 
preparedness that you believe State governments are engaged in 
and why, and if you don't know the answer, why we don't know 
the answer? Why should we be engaged on the Federal level to be 
able to assess what is going on in our State governments, 
because don't they interrelate with the Federal system, and 
therefore there is a serious impact that will occur if our 
State governments--50 of them--are not up to speed, and what 
specific actions do you think we should take? And I would like 
to start with the GAO on that question.
    Mr. Willemssen. A couple points that I would like to make: 
First of all, the data that we have seen among States, there is 
a tremendous variance among States on their readiness, and even 
within States, among different programs, there is quite a bit 
of variance in readiness. So, on one hand, it is hard to 
generalize. However, if one had to generalize based on the data 
that we have seen, I think you would say that the State 
governments overall are behind the Federal Government. One of 
the reasons for that is that most of the data that we have seen 
at the State government level is self-reported information. 
There are few instances where other organizations have gone in 
and looked at the data. In some cases the ground truth is 
actually a little worse than what has been reported.
    Last year when he took a look at some of the key human 
services programs, the self-reported State data we were 
provided was quite disappointing. Regarding Medicaid systems, 
only about 16 percent of those were considered compliant, and 
that was self-reported information. Based in part, on those 
kinds of data points, the Health Care Financing Administration 
actually hired a contractor to go out to all 50 States to help 
them to try to get on top of this issue.
    So I think that the State issue is one of concern, I think 
it is one, though, that has been recognized by the executive 
branch, in large part through the recent memorandum that they 
have issued focusing on about 10 of the State-administered 
programs. And with Federal agency lead partners helping with 
those States, I think that has the potential to go a long ways 
toward helping to address this issue.
    Ms. Jackson-Lee. Can you name for us and help us find a 
bottom line for the five worst States that are not in 
compliance?
    Mr. Willemssen. Actually, the report we did in November, it 
was hard to generalize even at a State level, because within a 
State the food stamp program may have been in better shape then 
the Medicaid, whereas the Temporary Assistance for Needy 
Families Program may have been very bad. So, even within the 
State, it was difficult to generalize.
    I will say that there are certain States that have been 
working on this for some time. The State of Pennsylvania, for 
example, has been considered a leader within the year 2000 
arena; that is not again to say that every program within that 
State is necessarily where it needs to be. Other States have 
also, within pockets, received publicity and good press for 
their excellent efforts, but, again, it is hard to generalize 
within a given State, because even a chief information officer 
within a State may not have full control and authority over all 
of those programs.
    Ms. Jackson-Lee. Mr. Willemssen, you are using great 
diplomacy by answering my question with a positive, but I will 
try to pursue it with you directly and separately from this 
hearing, as to where some of our States are that need serious 
help. Because I believe the question that Chairwoman Morella 
asked you about whether or not we may need more money, it seems 
that we might need more money to be able to assist some of the 
States that may not be where we need them to be.
    And I see the red light, if the chairwoman would indulge me 
just for a question and I won't ask the rest of the panel to 
answer that question.
    I thank you, Mr. Willemssen, but I will ask Ms. Reed to 
followup. In particular, I am concerned--I chair the 
Congressional Children's Caucus--and I am concerned with 
respect to the Agriculture Department. Child nutrition, food 
stamps, WIC, rely heavily on State information systems, and we 
understand that some States won't even be in compliance until 
1999. So what contingency plans is USDA engaging in to help 
some of these States with their compliance?
    Let me, before you answer that, just note to my friend from 
USAID, that we applaud the great work that you do. I have just 
returned from Africa and I know the work that you do, and in 
difficult areas, in developing nations. However, it seems that 
it will be a great burden if you have seven systems and all 
seven of them are not working at this point.
    My time has run out, but if you are able to answer that 
comment--if the chairwoman indulges me--otherwise, I would take 
your answer in writing, but I would like to hear from Ms. Reed, 
who is with USDA.
    Ms. Reed. The Food and Nutrition Service has been working 
with the States since 1967 to make sure that they are aware, 
and that we are aware, of what needs to be done in these 
arenas.
    Ms. Jackson-Lee. Did you say 1967?
    Ms. Reed. 1997.
    Ms. Jackson-Lee. Thank you.
    Ms. Reed. I apologize. We weren't quite that prescient. 
[Laughter.]
    Ms. Jackson-Lee. You are quite ahead of your time.
    Ms. Reed. Thank you for that.
    However, we do now receive quarterly reports from the 
States. We have one that is just imminent here; the last report 
that I have is from December. A number of the States are 
reporting that they are compliant, but, as you indicate, some 
of the States do show that they don't plan to be compliant 
until quite late in the year. So we are requiring business 
continuity plans from each State. We are actually requiring 
each State to certify their compliance as we move into these 
later months. Our State directors and regional directors are 
working very intensively with the States to assure that we have 
the most information possible and, where necessary, can provide 
technical assistance to them.
    Mrs. Morella. Thank you, and thank you, Ms. Jackson-Lee.
    Ms. Jackson-Lee. Thank you.
    Mrs. Morella. Mr. Gutknecht, I am delighted to recognize 
you, sir, for the questioning.
    Mr. Gutknecht. Thank you, Madam Chair, and it is good to be 
here.
    Let me start by saying that I have had a couple of townhall 
meetings in my district about year 2000, and I am happy to 
report the State and local government officials who have 
testified--at least in my State--are more than eagerly moving 
forward with their plans, and I think we are making tremendous 
progress--at least in my State. And I feel pretty good about 
what we hear from some of the Federal agencies.
    But I want to come back to a point that Dr. Horn raised, 
and I think the real issue is about accountability. You know, 
it is disturbing that the FAA and--I will try to be 
diplomatic--in the end we wasted $4 billion, the FAA, and the 
story is that we also wasted $4 billion with the IRS. And I am 
not certain who to address this question to, but it strikes me 
that in the private sector, and one of the reasons--I think at 
least the major corporations; I am not so certain about small 
businesses--the only area that I am really worried about in 
terms of where we are going to be January 1st of next year, in 
my opinion, has much more to do with what is happening with 
small businesses, who are to busy or haven't taken the time, or 
for whatever reason. The SBA, Madam Chair, I might just say--
and we should make this available and maybe connect somehow to 
our website, whatever---SBA does have a wonderful kit that they 
have put together, including a CD ROM that sort of helps walk 
small business through what the problems are and what they need 
to look for, and so forth. And I really want to congratulate 
the SBA.
    But I want to come back to a point that concerns me and it 
is the word ``accountability.'' I think most major businesses--
and we have had major airlines and some of the power companies 
and other companies come and testify at our townhall meetings 
about what they are doing with year 2000. They understand that 
this is serious. In fact, my first hearing we had, I think 
there were six companies that testified, and collectively, they 
were investing somewhere in the neighborhood of $150 million to 
make certain their systems would work on January 1, 2000. The 
reason, I think, is they understand that ultimately they are 
going to be held accountable.
    I think the question that I have for anyone who wants to 
respond to it--you know, in the private sector there is an 
unwritten system of rewards and punishments. And I might just 
ask this question--maybe somebody can answer it--in both the 
situation with the FAA and the IRS, was anybody replaced or 
demoted because of the $4 billion which was wasted?
    Mr. Flyzik. If you would like, from the perspective of 
Treasury, I would suggest to you that the majority of the folks 
at the IRS that were part of that are no longer at the IRS. I 
don't know, specifically, whether or not it was resulting 
directly from this or not. I will suggest to you that we have 
learned some lessons, and I will suggest to you that we were 
building systems back then with some 1980's approaches with 
1990's technologies. I think, the Klinger-Cohen legislation, 
passed by the Congress, clearly, puts responsibility on the 
CIO. I do believe that the legislation passed by the Congress 
makes it clear that the chief information officers are now 
responsible. I accept that responsibility and plan to stay 
through the year 2000 program at Treasury, and we jokingly say 
that CIO may mean ``Career is over,'' if we do not meet our 
year 2000 requirements. But I think the Congress passed the 
Klinger-Cohen legislation that makes it clear that CIO's are 
now accountable, and I think some of those lessons of the past 
are the reason the legislation was passed.
    Mr. Gutknecht. Anybody else want to respond to that? Is 
that generally felt throughout the various agencies, that 
people are going to be held accountable?
    I see some heads nodding; those don't show up on the tape.
    Ms. Reed. I will, on behalf of the Department of 
Agriculture--the Secretary of Agriculture has made it very 
clear that not only the CIO is accountable, but every single 
Under Secretary, every single agency administrator; their jobs 
are on the line, to make sure--our jobs are on the line--to 
make sure that we can continue to deliver USDA's programs. He 
has been most clear and emphatic on that point.
    Mr. Burbano. I would like to second that from the State. 
The Under Secretary for Management has put the responsibility 
for year 2000 delivery on every Assistant Secretary, including 
the CIO, which is me.
    Mr. Gutknecht. All right, can I change the subject real 
quick, because I see the yellow light is already gone, and 
really I want to come back to Mr. Burbano.
    As I say, I feel fairly confident that somehow our State 
and Federal Government and local governments are going to slug 
through this thing, but I am much more concerned about what is 
going to happen in foreign countries. I don't know how well you 
guys are plugged into--you are the best guesses we have got in 
terms of what is going to happen in some other countries, some 
of our trading partners around the world. What is your best 
guess, what is going to happen?
    Mr. Burbano. OK, we have an international working group 
comprised of several agencies in the international affairs 
arena, co-chaired by the Department of Defense and State 
Department, and the Secretary has tasked each chief of mission, 
the Ambassador, to fill out a contingency plan toolkit that we 
have, which is due back April 16, which we will then put 
together and look where the gaps are. It is very detailed. It 
looks at the energy, water, transportation, telecommunications, 
healthcare, finance, public services, and technology systems of 
every post and every country, and based on what we have seen in 
there, we will be in a position to do that. So that is one side 
of the house.
    The other side of the house is we are collecting 
information from all the different agencies, as well as 
different private sector firms such as Gartner, putting it 
together, and we plan to have that information available 
sometime during this summer, which will give us that kind of 
information. Obviously, you know, we have to be concerned about 
possible release of that data in order not to cause harm. So we 
are in the mist of grappling with that issue. But we plan to be 
prepared to have that information this summer, and we plan to 
prepare to have these contingency plans post-by-post, country-
by-country. April 16th is when we are due, and then we have to 
do some analysis, and so forth.
    Mr. Gutknecht. OK, thank you.
    Mrs. Morella. Thank you, Mr. Gutknecht.
    Mr. Burbano, picking up on that same issue, what percentage 
of State Department year 2000 funds are being specifically 
designed for embassies abroad?
    Mr. Burbano. I would like to get those figures back to you. 
I don't have it broken down by overseas, but I would like to 
get those figures back to you.
    Mrs. Morella. Sure, that would great, because I am actually 
also interested in whether or not the allocation is based on 
certain criteria that you have established. I mean, for 
instance, would our embassy in Italy have more in the way of 
year 2000 funding then our embassy in Tanzania? I mean, what do 
you use for criteria in that regard? And then, you know, I am 
interested also--and I know my colleagues are, too--in what 
contingency plans you have for embassies and in countries that 
are not year 2000 compliant. I think we have all had 
experiences with questioning the authorities in so many of the 
countries, including industrialized countries, and find that 
their responses seem to be in a vacuum with regard to 
understanding the situation, let alone implementing it. So if 
you could get that information to me, and actually to all of 
you, I guess I would ask the agency representatives, the CIO's.
    GAO has, in its testimony, made many recommendations, such 
as establishing the target dates for contingency plans, the 
end-to-end testing, requiring the agency head to certify that 
systems are truly compliant, implementing a moratorium on 
software changes to ensure that these systems are compliant at 
the turn of the century. And I guess I would ask you is, do you 
agree with those recommendations? Do you plan to implement 
them? And I will start with any one of you, any one who wants 
to begin.
    Mr. Flyzik. Throughout the entire process of year 2000, we 
have had at Treasury a very positive working relationship with 
GAO. We have used the GAO guidance throughout the entire 
process, their contingency planning model, and it truly has 
been a value-added kind of work process we have used with GAO, 
and we intend to continue to use their guidance.
    I think the change management moratorium will be relatively 
controversial. There are many, of course, industry counterparts 
that have strategic plans where they are moving forward, and as 
changes are made in the commercial sector, it will impact some 
of the things we are doing.
    We also have, for example, at Treasury the IRS, where tax 
law changes are going to require certain changes. What we will 
likely do at Treasury is implement some type of exception 
process to minimize any changes, but I think we will need some 
flexibility in that guidance for things that are just out of 
our immediate control.
    Mr. Burbano. At the State Department this past fall we 
issued a moratorium on development other than year 2000. We did 
have an exception process for security, health, and other 
items. Up to date, we have put about 26 systems on the shelf as 
a result of not being year 2000 or security-or health-related. 
We are also issuing a moratorium this July on operating systems 
and off-the-shelf systems, and in September for application 
systems.
    In terms of an earlier question about the countries and 
embassies, as I mentioned, when we get back our contingency 
plans which look at various systems I talked about--the energy, 
the water, transportation, telecommunications, healthcare, 
finance, public services, and technology--that is our criteria. 
We see where the gaps are, and when we get the information this 
summer from the international working group as to where the 
countries are, as opposed to the post, we will put those 
together and we will clearly see, you know, what additional 
funds are needed based on those two items, the post situation 
and the country situation.
    Mr. Nygard. We at USAID have also been following the GAO 
guidance pretty closely. We find it useful, particularly the 
moratoriums. It has helped us to fend off requests from inside 
the agency and elsewhere for changes, just saying that year 
2000 has to have the highest priority. So we found it very 
useful guidance and have been following it closely.
    Ms. Reed. I certainly will echo that for the Department of 
Agriculture. We have tried very consistently to follow their 
guidance and have found it quite helpful in that regard. We, 
too, will be looking very closely at the change management 
program. We are extremely cognizant of the need to assure that 
there is stability as we go into the year 2000.
    One of the issues that we are continuing to wrestle with is 
that some of the software that has been determined to be 
compliant by vendors, who continuously send us patches and 
upgrades. We certainly want to be in a position, if a software 
vendor recommends to us that we need something for year 2000 
compliance that we had not foreseen earlier or they had not 
foreseen earlier, that we still able to implement it. So we 
need to be looking carefully at just how we approach achieving 
that stability.
    Mrs. Morella. I would like to also just briefly ask you, 
are all of the four agencies that we have before us, have all 
of you undergone the independent verification and validation 
process? Say yes and no.
    Mr. Flyzik. Absolutely.
    Mr. Burbano. Yes, and I would say that we have done it at 
two levels. We did it first within the CIO office in the 
bureau, and then we are doing it at a second level with the 
Office of the Inspector General, and we developed that 
criteria. So we are actually going through it twice.
    Mr. Nygard. Yes, we, too, are using independent validation 
and verification, and then after that, all of our systems will 
be reviewed by our Inspector General. So we have two stages as 
well.
    Ms. Reed. IV&V has been a very, very key part of our year 
2000 management program and will continue to be, as has our 
work with the Inspector General.
    Mrs. Morella. And, Ms. Lee, will you be requiring that all 
agencies undergo the IV&V?
    Ms. Diedre Lee. That is part of the system, not only the 
mission-critical system assessment, but also as we do the 
seamless program checks; we will verify that that has been 
done.
    Mrs. Morella. What if agencies say they don't have the time 
to do it? Would you be helpful?
    Ms. Diedre Lee. We haven't heard that to date, and because 
of the schedules of the mission-critical systems, that schedule 
that they put in place includes the IV&V piece. In fact, some 
of the agencies that are not yet 100 percent, that is the piece 
they are missing; they have gone that far. If they haven't 
completed that, they are not in the 100 percent category.
    Mrs. Morella. Well, thank you.
    Chairman Horn, your turn at bat.
    Mr. Horn. Thank you very much.
    The Director of OMB sent out memorandum to the head of the 
executive departments and agencies, dated March 26, 1999, and 
without objection, I would like that included in the record at 
this point, because my questions will relate to that 
memorandum.
    Mrs. Morella. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED]61120.071
    
    [GRAPHIC] [TIFF OMITTED]61120.072
    
    [GRAPHIC] [TIFF OMITTED]61120.073
    
    [GRAPHIC] [TIFF OMITTED]61120.074
    
    Mr. Horn. Ms. Lee, there are roughly 19 departments and 
agencies that are shown in his attachment, and that is where 
the 42 programs come from. I wonder if you could just tell me, 
how were those 42 programs selected?
    Ms. Diedre Lee. We actually went out to the agencies and 
got agency input, as well as other governmental input. I think 
this might be a time to mention that, as we were talking about 
concerns of the States and other governments, we do have the 
President's Council on Year 2000 Conversion, and they have been 
very active in dealing with the Governors' associations, 
outreach programs, meetings, et cetera. That is also going on 
as we speak, and generally John Koskinen, who represents that 
group, speaks of their outreach activities and their 
accomplishments.
    But through the consultation process with the agencies, and 
with the State and local governments, and in assessing the 
programs that had direct impact on people, this list was 
developed. But, it is an ongoing list, and should you have 
other programs that you feel are important, we are more than 
happy to add those, and make sure we have a lead agency 
assigned to it and that we monitor the progress.
    Mr. Horn. Well, was the criteria based on what is the most 
that these programs are in relation to people? Is that it? You 
just said that.
    Ms. Diedre Lee. I can get you the specific criteria that we 
went through, but, generally, it was: what are the major 
programs that cross agency lines that we couldn't say are 
mission-critical? Programs that may cross numerous agencies, 
State, local governments, and that have a delivery or an end 
product that we think we directly affects health, welfare, and 
safety of people.
    [The information referred to follows:]

    We have asked Federal agencies to work with their partners 
to assure that all Federal programs will work. In developing 
the list of high impact programs about which agencies are 
reporting status information to OMB, we looked at the Federal 
government from an individual's point of view and selected 
programs that, if interrupted, would have a direct and 
immediate impact on individuals.

    Mr. Horn. Well, as it reads, you are absolutely right, that 
is the basic criteria, it would seem to me, both with other 
agencies to the Federal Government, as well as with State and 
local agencies, and I don't have a problem with that. But I 
guess I would ask the question, where are some of the very 
difficult programs that might not meet that criteria, but must 
be taken care of long before January 1, 2000? Let me give you 
an example.
    I don't have a problem with the Department of Defense 
having its two programs of military hospitals and military 
retirement. Granted, they are, in essence, very much like what 
you have under USDA, or you have under HHS, or you have under 
HUD programs that affect a lot of people. I guess what I do 
worry about is, where is about the 100 or so readiness programs 
that the Department of Defense ought to have on this list? Is 
there a separate list floating around?
    Ms. Diedre Lee. OMB didn't create a separate list, but we 
do acknowledge and recognize the Department of Defense has a 
lot of military programs. Certainly, some would say you could 
add them to this list. But because we generally say they are 
not something that an individual per se has an interaction 
with, the Department of Defense on military systems are not put 
on this particular list. Nevertheless, we are very aware of 
that issue and DOD is tracking their mission-critical systems 
as well.
    Mr. Horn. So you have a list of the readiness programs?
    Ms. Diedre Lee. I believe DOD has that list. I can 
certainly get it for you. I don't have it at this meeting.
    [The information referred to follows:]

    The Department of Defense is closely tracking the Y2K 
status of its readiness programs. We are confident that the DoD 
systems will be ready for the new millennium and that the 
Department will be able to continue to carry out its missions.

    Mr. Horn. All right, because I guess I would ask you, what 
are the key programs that are not on this list, and that would 
include all agencies? I mean have we--is this it? Or are there 
others even on the domestic non-military agencies?
    Ms. Diedre Lee. These are the 42 high-impact programs that 
we have identified on the non-military side, with those two 
exceptions. But it is a continuing list, and as we progress 
farther in the business continuity and contingency plans, we 
could identify additional programs to be added.
    Mr. Horn. Now, as I understand it, there are master plans 
for each of these high-impact programs to guide the key 
organizations to be sure that they work, one, together; No. 2, 
that they really work, and No. 3, that they be brought in, I 
guess by, April 15th. Is that roughly it?
    Ms. Diedre Lee. We are looking for the business continuity 
and contingency plans to be in on April 15th, 2 days from now. 
We will then look at those plans, along with GAO, for 
thoroughness and other issues. That is going to give us the 
next step on. If they are thorough and descriptive and end-to-
end, we have one situation, versus if there are pieces of 
information missing or holes or there is non-continuity, we 
have another situation.
    Mr. Horn. It is good to know that on April 15th, when 
taxpayers are sweating out paying the revenue side of the coin, 
that agencies are sweating it out paying the expenditures side 
of the coin. So that----
    Ms. Diedre Lee. Share the wealth?
    Mr. Horn [continuing]. I find a certain symbolism in this; 
maybe you don't? In your opinion, when will these high-impact 
programs be certified as year 2000 ready?
    Ms. Diedre Lee. It will be program by program. I wish I 
could tell you there is going to be one date. But that is going 
to be part of the plan, and part of the contingency plan is 
going to maintain the schedules and the milestones. From there 
we will set up the tracking mechanism. I feel certain that we 
will be back to discuss that with you further.
    Mr. Horn. OK. Now, let me ask both you and Treasury, to 
which this is relevant, the President held his second statement 
on the year 2000 acknowledging Social Security's very good job 
of compliance. I had assumed, when he did that, that he also 
knew that the Treasury's Financial Management Service had been 
2000 compliant. And I guess I need to ask the Treasury 
representative, is the Treasury's Financial Management Service 
compliant? Because, as you know, it needs to turn out about 43 
million checks a month from the Social Security Administration. 
I guess I would ask you, to what degree is FMS compliant?
    Mr. Flyzik. Chairman Horn, as noted in my testimony, over 
90 percent of the payment systems are now using year 2000 
compliant software, including Social Security and supplemental 
security income payments. The last payment system to be made 
compliant is the Office of Personnel Management Payment System 
for Federal annuity payments. That system is ready to go at the 
FMS and it is waiting on an interfacing system. For those 
systems where FMS did not meet the March 31st deadline, you 
should be aware that FMS, in many cases, is waiting on other 
interfaces with other agencies to actually implement year 2000 
compliant systems. So, the FMS system is ready to go.
    Mr. Horn. OK, let us just take Social Security. Is it ready 
to go 100 percent on Social Security? Can they cut the checks? 
Can they send them? Then the question is, what about the 
depositories, credit unions, banks, whatever?
    Mr. Flyzik. Yes, in terms of cutting the checks, the answer 
is yes. In terms of the banks, the depositories are. Office of 
the Controller of Currency, as well as the Office of Thrift 
Supervision, continue inspection programs. Their latest report 
sent to the Congress indicates over 90 percent of the financial 
institutions being year 2000 ready. So, we are on a very 
positive trend. We are putting together and are doing testing 
among FMS, IRS, Social Security, and all of the revenue 
collection agencies, as well as the payment agencies, end-to-
end and interoperability testing, simulating configurations in 
a laboratory environment.
    Mr. Horn. OK, let me just go down the line: Are you ready 
to submit your April 15th report and plan to OMB? Will you be 
able to do it on time? How about Treasury?
    Mr. Flyzik. Yes, we will, and sitting right behind me is my 
program manager--who does all the work that I get all the 
credit for--is working on that as we speak.
    Mr. Horn. So if you go, he goes, is that it? [Laughter.]
    OK, or is it the other way around?
    Let me ask the gentleman from the Department of State: Are 
you ready on that April 15th?
    Mr. Burbano. Yes, we are ready.
    Mr. Horn. OK. Let me ask Mr. Nygard of the Agency for 
International Development.
    Mr. Nygard. Mr. Chairman, I think we get a bye on that; we 
don't have any systems on that list.
    Mr. Horn. Well, I would have put you on the list 3 years 
ago, Mr. Nygard. So, I mean, what is there left to do? Are you 
going to be able to do this job in AID or are we going to go 
back to the abacus?
    Mr. Nygard. No, we are there. We will do the job; no 
question.
    Mr. Horn. OK. Yes. They are now your ward, by the way; you 
are the guardian now of AID, right? So what is happening on the 
Department of State with its new child?
    Mr. Burbano. Well, we are integrating with USI and with 
ACTA, and we have met and continue to meet with USI and ACTA, 
and we plan to be fully compliant with our systems with both of 
those before the end of the year at this point. I would like to 
say, in terms of the 40 systems that you were addressing on the 
passport issue, that system is out of the independent test and 
validation phase; it is in deployment, and we plan to have that 
system fully implemented, the 14 passport offices, by the end 
of this month. So, not only will we have our report in, but we 
will have the system fully implemented by the end of this 
month.
    Mr. Horn. Well that is good news, because you do--what--
over a million passports a year?
    Mr. Burbano. Yes.
    Mr. Horn. I know it is substantial and you have had a very 
efficient operation, as I have seen it. So this will carry that 
on?
    Mr. Burbano. Absolutely. So, again, we are fully 
implemented by the end of this month on our one system that is 
on that list.
    Mr. Horn. Now, will the Agency for International 
Development be part of your jurisdiction?
    Mr. Burbano. No, that is why I was saying it is USI and 
ACTA. We do work closely as my counterpart mentioned.
    Mr. Horn. You are all in the same building, so I wouldn't 
think it is to hard to communicate.
    Mr. Horn. No, no, we work together, but we are not 
integrating their systems as we are with USI and with ACTA, so 
we do work and exchange information. They are part of the 
international working group as well, and they are out there in 
the post collecting information, sharing it with us; we are 
sharing it with them. So, we do work closely and help each 
other, but their systems are not being integrated with ours.
    Mr. Horn. OK, how about the Department of Agriculture, Ms. 
Reed, are you going to be able to give them something on April 
15th?
    Ms. Reed. We will be able to provide something, I will tell 
you that I think that it will require additional work, 
particularly the section on food safety, where we serve as the 
lead agency. I think we have pretty good command of what we 
have been doing within USDA, but we need to reach out to our 
partners across the Federal sector to assure we have 
incorporated their work, and quite frankly, that may take us 
just a little bit longer to do, but we will meet that 
commitment, because we take it very seriously.
    Mr. Horn. One of the columns on our quarterly report card 
has been the contingency plan. A lot of agencies have said it 
is the U.S. Post Office, in other words, mailed the checks, 
rather then electronically deposit. We then had a hearing with 
the U.S. Postal Service, and they have no contingency plan. So 
I find that rather interesting, and we have the phrase ``in 
progress'' for most of the 24 major executive agencies and 
Cabinet departments. I just would like to ask the four agency 
people here today, are we going to get in Congress another in-
progress-type thing on your contingency plan, or do you have a 
contingency plan before the next quarterly report?
    Mr. Flyzik. At the Treasury Department we established March 
31st, this past March, as the date for all of our bureaus to 
work on business continuity and contingency plans. On March 
31st, all but four of the bureaus had those plans into my 
office; the other ones are coming in now or will be in very 
shortly. We are going to do an analysis of those plans and put 
them together to come up with a Treasury-wide approach. So, we 
feel at Treasury we are ahead of the curve a little bit in this 
particular area and will look forward to reporting to you as we 
do the analysis of where we stand on the plans.
    Mr. Horn. State?
    Mr. Burbano. For the State Department, we have 59 mission-
critical systems. Out of the 59, we have 47 systems that have 
been completely finished and verified; 12 are in the mist of 
being finalized, and we plan to have those finalized by June.
    Mr. Horn. So you are saying, you don't need a contingency 
plan?
    Mr. Burbano. Oh, no, no, no. I am saying we have a 
contingency plan for each of them.
    Mr. Horn. For each of them?
    Mr. Burbano. Right, that is why I was saying, out of those 
59, 47 are solid green.
    Mr. Horn. Fine. How about the Agency for International 
Development?
    Mr. Nygard. We are in the process of completing our 
contingency plans. We expect them to be completed by June 30. 
So, for our next quarterly report you will get an ``in-
progress'' from us, but progress is going as per schedule, and 
we will be implementing those plans by the beginning of the 
summer.
    Mr. Horn. Agriculture?
    Ms. Reed. We sent out guidance to our agencies last fall on 
business continuity and contingency planning. I have received 
the first draft from all agencies within USDA, except for one; 
I expect to have that one shortly. We have been reviewing that 
draft, and I can tell you that it is version one. We know we 
will have more work to do, but we feel relatively confident 
that we will have a strong business continuity and contingency 
plan in place by June 15th.
    Mr. Horn. Well, I thank all of you. I am going to have to 
leave for another meeting, and thank you, Ms. Chairman.
    Mrs. Morella. Thank you, Mr. Chairman.
    And I am going to just ask one other question. Actually--I 
don't know--maybe it was in your testimony, Mr. Burbano, but it 
was reference to the year 2000 Program Management Office's 
strike teams. What do the strike teams do? Sounds like 
terrorism to me.
    Mr. Burbano. Well, we needed a strike team. You know, when 
I came on board we were zero compliant, and, you know, it took 
a lot to get us to 90 percent within 11 months. So, what I did, 
with my Deputy CIO for year 2000, is we got together and we 
decided we needed some strike teams to come in to not only do 
analysis, but provide assistance to each bureau to get us up 
there quickly in our steep curve of implementation. And they 
have actually provided the assistance, besides the analysis, in 
order to do test validations for helping contingency plans, for 
helping remediate, and so forth. So in all phases they have 
helped out, and continued to help out, the bureaus.
    Mrs. Morella. It just seems to me, from what has been 
stated in your wonderful testimony and response to our 
questions, that we are looking to April 15th for a view of the 
critical programs beyond what you have told us today: plans, 
milestones, also business continuity plans that I think is so 
important, and then as we go on to the end-to-end testing. So 
much more needs to be done, but I just am very much impressed 
with the progress that has been made. And as somebody who 
cares, as Mr. Horn does, very much about Federal employees, I 
do want to applaud you for responding to the challenge and the 
task. It is not all over yet, but, again, your cooperation in 
so doing I hope is a model for the States and local 
governments. Again, we will be back to you and hope you will be 
back to us about it.
    So I want to thank you all for coming before us. Thank you, 
Ms. Lee, and Mr. Willemssen, and Ms. Reed, Mr. Nygard, Mr. 
Burbano, and Mr. Flyzik.
    And I wanted to pick up the tradition that was established 
by Chairman Horn, and that is to acknowledge the staff who 
helped to put the committee hearing together: J. Russell 
George, who is with the Subcommittee on Government Management, 
Information, and Technology; Matt Ryan, senior policy director 
for GMIT; Bonnie Heald, who is the director of communications; 
Mason Alinger, who is the clerk; Richard Lukas, the intern. 
Technology is Jeff Grove, staff director; Ben Wu, professional 
staff member; Joe Sullivan, the clerk. And on the minority 
side, Faith Weiss, who is the counsel; Earley Green, staff 
assistant; Michael Quear; Marty Ralston, committee staff, and 
our court reporter, Kristine Mattis.
    And I thank you all, and the joint committee is now 
adjourned.
    [Whereupon, at 3:25 p.m., the subcommittees were 
adjourned.]

                                   - 

</pre></body></html>
